CERTIFICATE OF SERVICE
NO. 19-100
Crown Asset Management, LLC
Petitioner(s)
v.
Mary Barbato
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MARY
BARBATO BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006s
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Crown Asset Management, LLC

Lucas DeDeus

August 27, 2019
SCP Tracking: Edelman-20 South Clark Street-Cover Orange

